               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Best Value in the Purchasing Process

                       Audit Report




                                              October 9, 2012


Report Number CA-AR-13-001
                                                                       October 9, 2012

                                            Best Value in the Purchasing Process

                                                       Report Number CA-AR-13-001



BACKGROUND:
‘Best value’ is the basis of all U.S.      information in the Contract Authoring
Postal Service sourcing decisions and      Management System (CAMS) for nine
determined by an analysis of a contract    purchases, valued at $34,230,374.
solicitation’s evaluation factors,
weightings, and price. Review and          When Postal Service contracting
approval of contractual actions provide    officials do not perform sufficient
oversight and an objective view of         analyses and reviews during the
important business decisions. From         purchasing process, they cannot ensure
October 2009 through December 2011,        they get the best value. In addition, the
purchases for newly awarded contracts      Postal Service is at increased risk of
and task orders totaled $4,290,251,400.    conducting business with suppliers who
Of this amount, we identified              lack integrity, adequate resources, or
$1,582,017,870 as competitive              the technical skills to perform their
purchases.                                 contractual obligations. Finally, without
                                           complete files, contracting officials are
Our objective was to determine whether     unable to make informed contract
contracting officials provided adequate    management decisions.
evidence that they assessed evaluation
factors and conducted price analyses to    WHAT WE RECOMMENDED:
achieve best value in the purchasing       We recommended contracting
process.                                   managers conduct periodic reviews of
                                           electronic and physical contract files and
WHAT THE OIG FOUND:                        update the contract file transfer process
Postal Service contracting officials did   to require receiving contract officials to
not provide evidence that they achieved    certify that contract files contain required
best value when awarding contracts. We     documentation. Finally, we
identified discrepancies with 69 of the    recommended that management direct
105 purchases reviewed, valued at          contracting officials and higher level
$361,558,156. Specifically, contracting    approvers to ensure the accuracy of
officials did not maintain evidence to     CAMS information and adhere to
support an assessment of supplier past     Supplying Principles and Practices to
performance, supplier capability, price    obtain appropriate written approval prior
or cost analysis, or required review and   to submitting or approving contract
approvals for 60 purchases, valued at      actions.
$327,327,782. Further, contracting
officials incorrectly coded contract       Link to review the entire report.
October 9, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Best Value in the Purchasing Process
                           (Report Number CA-AR-13-001)

This report presents the results of our audit of Best Value in the Purchasing Process
(Project Number 12YG012CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Stephen J. Masse
    Trent K. Ensley
    Paul D. McGinn
    Susan A. Witt
    Corporate Audit and Response Management
Best Value in the Purchasing Process                                                                               CA-AR-13-001




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mandatory Evaluation Factors and Price Analysis .......................................................... 2

Review and Approvals..................................................................................................... 5

Contract Authoring Management System Data Integrity ................................................. 6

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary and Other Impacts..................................................................... 13

Appendix C: Additional Analysis .................................................................................... 14

Appendix D: Management’s Comments ........................................................................ 15
Best Value in the Purchasing Process                                              CA-AR-13-001




Introduction

This report presents the results of our self-initiated audit of best value in the purchasing
process (Project Number 12YG012CA000). Our objective was to determine whether
contracting officials provided adequate evidence that they assessed evaluation factors
and conducted price analyses to achieve best value in the purchasing process. This
audit addresses financial risk and identifies areas in the evaluation process that need
improvement to help the U.S. Postal Service achieve its goal to reduce supply chain
costs. See Appendix A for additional information about this audit.

‘Best value’ is the basis of all Postal Service sourcing decisions and determined by an
analysis of a contract solicitation’s evaluation factors and weightings in combination with
a price analysis. Past performance and supplier capability are mandatory factors that
contracting officials must evaluate during the purchasing process, while some form of
price analysis is required for every purchase. The evaluation process encompasses the
development of strategies and plans to facilitate Postal Service Supply Chain
management, the solicitation of suppliers to meet requirements, the evaluation and
determination of suppliers that offer best value, and the selection of qualified and
capable suppliers for contract award.

In the purchasing process, best value is generally achieved through competition, which
brings market forces to bear and allows the direct comparison of proposals and lifecycle
costs. Reviews and approvals of contractual actions provide oversight and an objective
view of important business decisions and pooling business insights enhances the
process of obtaining best value. The Postal Service has established various levels of
review and approval for contractual and related actions throughout the purchase
process.

Conclusion

Postal Service contracting officials did not provide evidence that they achieved best
value for all contract purchases. They did not maintain evidence to support an
assessment of mandatory evaluation factors and price analyses for contract purchases.
In addition, contracting officials did not properly approve all contract actions. Of the
105 purchases reviewed (valued at $1,582,017,870) we identified issues with
69 purchases (66 percent), valued at $361,558,156.

Specifically, for 60 purchases valued at $327,327,782:

      Contracting officials did not provide evidence that they assessed supplier capability
       and past performance or conduct a price analysis for 37 purchases.1


1
    This includes verification of whether suppliers were suspended or debarred.
                                                             1
Best Value in the Purchasing Process                                                                    CA-AR-13-001



   Contracting officials did not follow the required review and approval process for
    492 purchases.

We classified the value of the 60 purchases as unsupported questioned cost. These
costs are not considered unreasonable, but are questionable because we were unable
to find key documentation to show that Postal Service contracting officials sought best
value. See Appendix C for additional analysis of the 60 purchases. Further, contracting
officials also incorrectly coded contract information in the Contract Authoring
Management System (CAMS) for nine purchases, resulting in $34,230,374 of data
integrity errors.

Mandatory Evaluation Factors and Price Analysis

Postal Service contracting officials did not provide required documentation to support an
assessment of the mandatory evaluation factors3 or price analysis during the
purchasing process. We reviewed 96 competitive purchases, awarded from October 1,
2009 through December 31, 20114 and determined that 37 purchases (39 percent) did
not contain assessments of past performance, supplier capability, or evidence of a price
analysis.5 See Table 1 for a breakout of purchases with missing evaluation factors and
price analysis by portfolio.

                 Table 1. Purchases Missing Evaluations or Price Analysis

                                                    Purchases Missing                    Percentage of
                               Total                    Mandatory                      Purchases Missing
     Supply                 Purchases                Evaluation Factor                Mandatory Evaluation
  Management                 Reviewed               Assessment and/or                  Factor Assessment
    Portfolio               by Portfolio              Price Analysis                  and/or Price Analysis
Commercial
Products and
Services                                    22                                13                            59.09%
Facilities                                  11                                 3                            27.27%
Mail and
Operational
Equipment                                   29                                  8                           27.59%
Technology
Infrastructure                              16                                10                            62.50%
Transportation                              18                                 3                            16.67%
Total                                       96                                37                            38.54%

2
  Twenty-six of 49 purchases were also missing mandatory evaluations or a price analysis.
3
  Past performance assessment was not mandatory between May 2006 and December 2011.
4
  Our scope included base contract purchases awarded before October 2009, as the associated task orders for those
purchases fell within our review period.
5
  Purchases included task orders against indefinite delivery-indefinite quantity (IDIQ) contracts. Task orders for IDIQ
contracts do not require purchase plans, solicitations, and award recommendations; therefore, we evaluated these
documents at the contract level.


                                                           2
 Best Value in the Purchasing Process                                                                CA-AR-13-001



 Source: Postal Service Office of Inspector General (OIG) review of Postal Service records.


 For the 37 purchases, we identified 54 discrepancies in the contract files related to past
 performance, supplier capability, suspension and debarment, and price or cost analysis
 as shown in Table 2.

                  Table 2. Mandatory Evaluation Factors and Price Analysis
                                 Discrepancies by Portfolio
     Supply                 Suspension                                             Price and/or
  Management        Past       and                                Supplier             Cost
    Portfolio   Performance Debarment                            Capability         Analysis             Totals
 Commercial
 Products and
 Services                 0         13                                        1                  0                  14
 Facilities               0          3                                        0                  1                   4
 Mail and
 Operational
 Equipment                1          8                                        2                  0                  11
 Technology
 Infrastructure           2         10                                        2                  3                  17
 Transportation           1          3                                        2                  2                   8
 Total                    4         37                                        7                  6                  54
Source: OIG review of Postal Service records.

    Past Performance — Four purchases did not show evidence of assessing past
     performance in the contract files. This includes a review of suppliers’
     performance on previous Postal Service contracts, (b) record of conformance to
     contract requirements and standards of good workmanship, (c) timeliness of
     performance, (d) business relations with customers, or (e) cost control.

    Suspension and Debarment — Thirty-seven purchases did not contain
     documentation in the contract files to support a verification of whether suppliers were
     suspended or debarred. To determine whether suppliers are suspended or
     debarred, contracting officials must check the U.S. General Services
     Administration’s (GSA) consolidated list of suppliers debarred, suspended, or
     declared ineligible to be sure that Postal Service contracts are with responsible
     suppliers.6

    Supplier Capability — Seven purchases did not show evidence of assessing
     supplier capability in the contract files. This included a review of suppliers’



 6
   Purchasing Manual, Section 2.1.7.c, Number 2, Past Performance, dated January 31, 1997, with revisions through
 November 15, 2001. Supplying Principles and Practices, Step 2: Evaluate Sources, dated December 31, 2008, with
 revisions through March 2009. Supplying Principles and Practices, Section 2-26.4.1, Past Performance, dated
 December 12, 2011.


                                                          3
Best Value in the Purchasing Process                                                                CA-AR-13-001



    (a) technical and financial ability, (b) record of integrity and business ethics, or
    (c) quality control programs.7

   Price or Cost Analysis — Postal Service officials generally obtained adequate
    competition; however, contracting officials did not conduct a price or cost analysis for
    six purchases. This included performing one of the following techniques:
    (a) comparison of competitive offers; (b) comparisons with regulated, catalog or
    market prices; (c) comparisons with historical prices; or (d) use of independent cost
    estimates.8

Contracting officials stated they misplaced evaluation documents, received incomplete
contract files during a recent transfer of files between Postal Service facilities,
inadvertently did not include the documentation in the file, or were unaware of the
requirement to check the GSA’s list of suspended and debarred suppliers. There was
one instance where the contracting official relied on an outdated pre-qualification list to
determine whether suppliers were suspended or debarred. The pre-qualification list is
supposed to be updated every 2 years; however, the list was dated 2006, while the
contract was awarded in 2011. In addition, contract files for competitive purchases
should include solicitations, evaluation documentation, best value determination, award
recommendation, and a determination that the price is fair and reasonable.9

When Postal Service contracting officials do not assess mandatory factors, perform a
price analysis, and check for supplier suspension and debarment, supply management
contracting officials cannot ensure that they achieved the best value for these
purchases. In addition, the Postal Service is at increased risk of conducting business
with suppliers who lack integrity and business ethics or lack adequate resources and
technical skills to perform their contractual obligations. As a result, the Postal Service
may not be able to achieve the desired results for the applicable contract agreements.

We identified similar issues during a previous audit, in which management officials did
not provide sufficient oversight to ensure employees were following records
management requirements.10 Missing contract documentation could result in contract
information that is not readily accessible to contracting officials. In addition, contracting
officials are unable to make informed contract management decisions regarding
payments and other contract administration tasks. Further, if contracting officials do not
appropriately safeguard contract files, they risk the improper disclosure of proprietary or
sensitive contract documentation.

7
  Purchasing Manual, Section 2.1.7.c, Number 3, Supplier Capability, dated January 31, 1997 with revisions through
November 15, 2001. Supplying Principles and Practices, Step 2: Evaluate Sources, dated December 31, 2008, with
revisions through March 2009. Supplying Principles and Practices, Section 2-26.4.2, Supplier Capability, dated
December 12, 2011.
8
  Purchasing Manual, , Section 5.1.2.a, Price Analysis, dated January 31, 1997, with revisions through November 15,
2001. Supplying Principles and Practices, Step 2: Evaluate Sources, Conduct Price/Cost Analysis, , dated December
31, 2008, with revisions through March 2009. Supplying Principles and Practices, Section 2-34, Conduct Price/Cost
Analysis, dated December 12, 2011.
9
  Supplying Principles and Practices, Section 2-40.3.1, Contract Files for Competitive Contracts.
10
   Internal Controls over the Contract Close-out Process (Report Number CA-AR-11-004, dated April 27, 2011).


                                                         4
Best Value in the Purchasing Process                                                                 CA-AR-13-001



Review and Approvals

Review and approval of contractual actions provide oversight and an objective view of
important business decisions. The Postal Service has established various levels of
review and approval for contractual and related actions throughout the purchase
process. In our review, we evaluated the approval process for purchase plans and
contract awards for 96 purchases. Forty-nine of 96 purchases (51 percent) had
sixty-two discrepancies. Specifically, 40 purchase plans and 22 award
recommendations were either signed but not dated by the approving officials, missing
from the contract files, or approved after the release of the solicitation or the award
effective date, as shown in Table 3.

                          Table 3. Review and Approval Discrepancies
                                                                      Approved After
                                                         Signed       the Solicitation
                                       Missing             not           or Award
           Document Type              Approvals          Dated         Effective Date           Total
          Purchase Plans                     16                8                     16            40
          Award
          Recommendations                         15             1                         6         22
         Source: OIG review of Postal Service records.

Contracting officials stated this occurred because approving officials gave contracting
officials verbal approval to proceed with releasing solicitations and approved awards
after the effective date. In addition, contracting officials entered incorrect solicitation
dates in CAMS and did not follow up with the CAMS specialist to correct the errors.
Finally, contracting officials signed but did not date purchase plans; therefore, we were
unable to determine whether the plans were approved prior to release of the
solicitations.

The Supplying Principles & Practices (SP&P) states that all purchase plans for
competitive purchases valued at $1 million or more must be reviewed and approved by
the appropriate approval authority and included in the contract file. Unless other
arrangements have been made and approved by the appropriate authority, the
purchase plan review and approval must be done either before the pre-qualification of
potential suppliers or before the solicitation issuance.11 The reviewer must signify his or
her review approval for the record.12 Policy also states that contracting officers (COs)
with sufficient amount of contracting authority must approve contract awards. If a
proposed award requires higher-level review and approval or a delegation of contracting
authority, it may not be made until the approval or delegation has been obtained.13
Further, the vice president of Supply Management must review and approve purchase
plans and contract awards and modifications valued at $10 million or more. 14
11
   Supplying Principles & Practices, Section 2-41.2.1, Purchase Plans.
12
   Supplying Principles & Practices, Section 2-41.2-3, Review and Approval Process for Competitive Actions.
13
   Purchasing Manual, Section 4.2.6, Contract Award.
14
   Supplying Principles and Practices, Section 2-41.2.2, Reviews and Approvals.


                                                         5
Best Value in the Purchasing Process                                                             CA-AR-13-001




Instead of signing purchase plans and awards, higher-level review and approval officials
verbally approved purchase plans and approved awards after the awards’ effective
date. The SP&Ps do not include exceptions that allow verbal approvals for purchase
plans. In addition, the award approval date cannot occur after the award effective
date.15 If contracting officials do not follow the review and approval processes, Supply
Management cannot provide adequate oversight of important business decisions and
may jeopardize their ability to achieve best value. Also, if there are no checks and
balances, higher-level officials cannot ensure that (a) contract actions comply with
purchasing regulations and laws, (b) sound business judgment is demonstrated and
consistent with the purchase plan and solicitation, and (c) potential conflicts of interest
will not exist in the purchase.

Contract Authoring Management System Data Integrity

Postal Service contracting officials incorrectly designated nine purchases, valued at
$34,230,374, as competitive in CAMS. Instead they were either required source, legally
mandated,16 or non-competitive.

Specifically, contracting officials selected the incorrect procurement type when creating
the purchase information in CAMS and:

     Seven transportation purchases were coded as competitive instead of required
      source – legally mandated.
     One facility’s purchase and one mail and operational equipment purchase was
      coded as competitive instead of non-competitive.

Contracting officials stated this occurred because the required source — the legally
mandated procurement code — was not available as a selection in CAMS or they
selected the incorrect code for contracts that were non-competitive. In addition, higher-
level reviewers did not conduct a thorough review of the CAMS data before approving
the CAMS information.

In 2011, Supply Management trained Postal Service contracting officials in CAMS and
electronic file maintenance. The training addressed contracting officials’ roles and
responsibilities to ensure data integrity. Specifically, the buyer or CO is responsible for
ensuring that contract information is complete and accurate before routing to the higher-
level reviewer for approval. The higher-level reviewer is responsible for verifying the
accuracy of the data entered into CAMS. The higher-level reviewer should thoroughly
review all CAMS award data fields and contract electronic file documentation for
accuracy before approval. If the data in CAMS are inaccurate, the higher-level reviewer
must disapprove the award and contracting officials must take corrective action.17
15
   CAMS and Contract eFile Documentation Compliance Training Award and Modifications, dated March 2011.
16
   The Postal Service has an inter-agency agreement with the Defense Logistics Agency (DLA) that requires
contracting officials to purchase bulk fuel from the DLA.
17
   CAMS and Contract eFile Documentation Compliance Training Award and Modifications.


                                                       6
Best Value in the Purchasing Process                                            CA-AR-13-001



Because employees did not accurately record or complete contract data in CAMS, the
Postal Service cannot accurately report on its purchase award types. In addition,
incorrect information in CAMS potentially misrepresents the Postal Service's allocation
of funding, adversely influences supply management decisions, and could affect
goodwill branding. Contracting officials began taking corrective actions to update the
incorrect contract coding in CAMS.

Recommendations

We recommend the vice president, Supply Management:

1.    Direct contracting managers to conduct periodic reviews of electronic and physical
      contract files to ensure that contracting officials maintain evidence of mandatory
      evaluations, price analysis, and review and approvals in the contract files.

2.    Update the contract file transfer process to include a step to require the receiving
      contract officials to certify that contract files contain required documentation.

3.    Direct contracting officials and higher-level approvers to ensure the accuracy of
      Contract Authoring Management System information and adhere to Supplying
      Principles & Practices to obtain appropriate written approval prior to submitting or
      approving contract actions.

Management’s Comments

Management agreed with all of the findings and recommendations. Regarding
recommendation 1, management will enhance the existing compliance reviews of new
awards that started in April 2011 by involving the contracting managers in the
remediation process and provide an overview of the process by November 2012.

With recommendation 2, management agreed to update the contract file transfer
process to improve the transfer and receipt of complete files and will include a step to
address acknowledgement of transferred files by December 2012. In response to
recommendation 3, management will cascade the report to the contracting officials to
reiterate the need for data accuracy and remind higher-level approvers of their roles and
responsibilities by November 2012. Management stipulated that some higher level
approvals of contracting actions may take the form of an email or electronic approvals.
See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. Regarding management’s corrective actions to recommendation 3, the potential
risks involved in other forms of electronic approvals will need to be reviewed before we
can completely agree not to restrict their future use. Lastly, we believe the difference
between the processes for reviewing and approving CAMS data versus the process for


                                              7
Best Value in the Purchasing Process                                       CA-AR-13-001



reviewing and approving the purchase plan and award recommendations need to be
clearly defined and communicated to the contracting managers.

The OIG considers all recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed
                                            .




                                           8
Best Value in the Purchasing Process                                           CA-AR-13-001



                             Appendix A: Additional Information

Background

‘Best value’ is the basis of all Postal Service sourcing decisions. The aspects of best
value are expressed in the solicitation’s evaluation factors and weightings. Past
performance and supplier capability are mandatory factors that contract officials must
evaluate during the purchasing process, while some form of price analysis is required
for every purchase. The evaluation process encompasses the development of
strategies and plans to facilitate Postal Service Supply Chain management, the
solicitation of suppliers to meet requirements, the evaluation and determination of
suppliers that offer best value, and the preliminary selection of a qualified and capable
supplier for contract award.

When evaluating past performance, the purchase teams should consider (1) quality, (2)
timeliness of performance, (3) business relations, and (4) cost control. To fully evaluate
past performance, COs must check the GSA’s consolidated list of suppliers debarred,
suspended, or declared ineligible to be sure the Postal Service contracts with
responsible suppliers. When evaluating supplier capability, the purchase teams should
consider several matters, including the supplier’s (1) technical and financial ability, (2)
record of integrity and business ethics, and (3) organization and operational controls.
When conducting a price analysis one or more of the following techniques may be used:

   Comparison of competitive offers.
   Comparison with regulated, catalog, or market prices.
   Comparison with historical prices.
   Use of independent cost estimates.

If the price analysis methods do not ensure that prices are fair and reasonable, a cost
analysis or some other technique appropriate for the goods or services being purchased
should be performed. Cost analysis is the process of examining the separate elements
of cost and profit in a potential supplier’s cost or pricing data.

From October 1, 2009 through December 31, 2011, Postal Service purchases for newly
awarded contracts and task orders totaled $4,290,251,400. Of this amount,
$1,582,017,870 was identified as competitive purchases.

Objective, Scope, and Methodology

Our objective was to determine whether contracting officials provided adequate
evidence that they assessed evaluation factors and conducted price analysis to achieve
best value in the purchasing process.




                                             9
Best Value in the Purchasing Process                                             CA-AR-13-001



To accomplish our objective, we:

   Reviewed Postal Service criteria, guidelines, and procedures on the purchasing
    evaluation process.

   Interviewed Postal Service contracting officials responsible for the purchasing and
    evaluation process.

   Obtained a universe of 105 contract purchases valued at $1,582,017,870 that were
    identified as competitive, greater than $1 million, and awarded between October 1,
    2009 and December 31, 2011.

   Reviewed contract documentation to determine whether Postal Service officials:

    o Identified how they planned to assess the mandatory evaluation factors and
      conducted price analysis in the purchase plan.

    o Assessed whether the mandatory evaluation factors and price analysis were
      conducted in accordance with SP&P.

    o Obtained adequate competition.

    o Performed appropriate review and approvals of the purchase plan and award
      recommendation.

We conducted this performance audit from December 2011 through October 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 22, 2012, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by comparing source
documents to data in the CAMS to validate monetary amounts, as well as contract
effective date and procurement type. We determined that, except for the procurement
type, the data were sufficiently reliable for the purposes of this report. Our audit results
report on the discrepancies found in the ‘procurement type’ field.




                                             10
   Best Value in the Purchasing Process                                         CA-AR-13-001




   Prior Audit Coverage

                                              Final
                        Report               Report   Monetary
 Report Title           Number                Date     Impact              Report Results
Contract             CA-AR-11-002         4/27/2011   $2.1 billion    Postal Service officials
Management                                                            did not adequately
Data                                                                  collect and maintain
                                                                      contract data in CAMS.
                                                                      Management agreed
                                                                      with all of the
                                                                      recommendations.
Internal             CA-AR-11-004         4/27/2011   $54.7 million   Supply Management
Controls over                                                         personnel did not always
the Contract                                                          follow contract closeout
Close-Out                                                             procedures or records
Process                                                               management
                                                                      requirements.
                                                                      Management agreed
                                                                      with all of the
                                                                      recommendations.
Information          CA-AR-09-007         9/29/2009   $11.8 million   The cost and price
Technology’s                                                          analysis that Postal
Preferred                                                             Service personnel
Portfolio                                                             performed usually did
Partnering                                                            not result in negotiated
Program                                                               price reductions of
                                                                      Accenture’s LLC
                                                                      proposals. Additionally,
                                                                      Supply Management did
                                                                      not always follow the
                                                                      recommendation of a
                                                                      third-party contractor to
                                                                      reduce task order
                                                                      amounts or reject them
                                                                      in full. Management
                                                                      agreed with the findings
                                                                      and recommendations.




                                                 11
Best Value in the Purchasing Process                                                                   CA-AR-13-001



                             Appendix B: Monetary and Other Impacts

                                               Monetary Impacts

        Recommendation                         Impact Category                               Amount
             1,2,3                         Unsupported Unrecoverable                        $327,327,782
                                               Questioned Cost18

                                                 Other Impacts

         Recommendation                           Impact Category                            Amount
               3                                   Data Integrity19                          $34,230,374

The $327,327,782 represents the total value of 60 purchases where contracting officials
did not provide evidence that they assessed past performance and supplier capability,
performed a price analysis, checked the GSA’s list of suspended or debarred suppliers,
obtained the required review and approvals for purchase plans and award
recommendations, and maintained complete contract files. The $34,230,374 represents
the value of the nine purchases that contracting officials incorrectly coded in CAMS as
competitive awards.




18
   A subset of questioned costs that is claimed because of failure to follow policy or required procedures, but that
does not necessarily connote any real damage to the Postal Service.
19
   Data used to support management decisions that are not fully supported or completely accurate. This can be the
result of flawed methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.




                                                          12
Best Value in the Purchasing Process                                             CA-AR-13-001




                                      Appendix C: Additional Analysis

Our scope included task orders awarded from October 1, 2009 through December 31,
2011, some of which were written against IDIQ contracts awarded prior to 2009.
Contracting officials assessed mandatory evaluation factors for these purchases at the
contract level. Since contracting officials still award purchases against these IDIQ
contracts, the purchases remained in our universe. During our exit conference, the vice
president of Supply Management requested a distinction between purchases made after
the SP&P were implemented to illustrate whether there were improvements in
contracting practices.20 As noted in Table 4 below, we reviewed contract files for nine
contracts awarded prior to 2006, associated with task order purchases made during our
period of review. Although there was a decrease in the percentage of discrepancies
identified since the SP&P were issued, the discrepancy rate is still greater than 50
percent.

           Table 4. Purchases Containing Discrepancies by Contract Award Date

                                                    Purchases     Percentage of Total
      Contract Award              Total Purchases   Containing   Purchases Containing
             Date                   Reviewed21     Discrepancies    Discrepancies
      Prior to 2006                              9             8               88.88%
      2006-2011                                 87            52               59.77%
      Total                                     96            60               62.50%
     Source: OIG review of Postal Service records.




20
     The SP&Ps were issued in May 2006.
21
     The total does not include the nine purchases with data integrity issues.


                                                             13
Best Value in the Purchasing Process                           CA-AR-13-001



                           Appendix D: Management’s Comments




                                          14
Best Value in the Purchasing Process        CA-AR-13-001




                                       15
